No. 20-1009
IN THE

Supreme Court of the United States
DAVID SHINN, et al.,
Petitioners,
v.
DAVID MARTINEZ RAMIREZ and BARRY LEE JONES,
Respondents.
ON WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I, Alan E. Schoenfeld, a member of
the bar of this Court, certify that the accompanying Brief for The American Bar
Association as Amicus Curiae Supporting Respondents contains 5,852 words, excluding
the parts of the document that are exempted by Supreme Court Rule 33.1(d).
Executed on September 20, 2021.

ALAN E. SCHOENFELD
WILMER CUTLER PICKERING
HALE AND DORR LLP
7 World Trade Center
250 Greenwich Street
New York, NY 10007
(212) 230-8800

